HHS/OIG, Audit -"Review of Graduate Medical Education Costs Claimed By The Hospital of Saint Rafael for Fiscal
Year Ending September 30, 1999,"(A-01-02-00506)
Department
of Health and Human Services
"Review of Graduate Medical Education Costs Claimed By The Hospital of Saint Rafael for Fiscal Year Ending September
30, 1999," (A-01-02-00506)
November 5, 2002
Complete
Text of Report is available in PDF format (570 kb). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
This report presents the results of our review of medical education costs claimed by the Hospital of Saint Raphael (Hospital)
for the fiscal year (FY) ended September 30, 1999.  The objective of our review was to determine the accuracy of the
resident Full Time Equivalent (FTE) counts used to calculate direct medical education (GME) and indirect medical education
(IME) payments.  We found that the Hospitals controls over the proper claiming of resident FTEs were generally adequate,
however, we noted that the Hospital erroneously included 3.5 FTEs into its GME computations that did not meet Medicare
criteria for reimbursement.  Specifically, the GME FTE counts included residents exceeding their initial residency
periods without appropriate GME weighting reductions, residents in Medicare non-reimbursable programs, and other recording
type errors.  As a result, the FY 1999 Medicare cost report was overstated by $77,003.  We recommended that the
Hospital strengthen its procedures to ensure that resident FTE counts are computed in accordance with Medicare requirements
and that the Fiscal Intermediary apply the recommended adjustments in GME costs to the Hospitals FY 1999 Medicare cost
report.  The Hospital agreed with our findings and recommendations and has developed an action plan to address these
issues.